PROOF OF SERVICE
WASHINGTON MUTUAL BANK, FA &
JP MORGAN CHASE BANK,
NATIONAL ASSOCIATION, AS
ATTORNEY-IN-FACT FOR FEDERAL
DEPARTMENT OF INSURANCE
NATIONAL ASSOCIATION, AS
CORPORATI ON, AS RECEIVER OF
WASHINGTON MUTUAL BANK F/K/A
WASHINGTON MUTUAL BANK, FA
7610 West Washington Street, FI.
Indianapolis, Indiana 46231

BANK OF AMERICA, N.A.
C/O CT SYSTEMS CORP.
818 West Seventh Street, Suite 930
Los Angeles, California 90017
GGAT MANAGEMENT
C/O CT SYSTEMS CORP.
SERVICES 2014-12, LLC
C/O THE MANAGEMENT
TRUST COMPANY
Corporation Trust Center
1209 Orange Street
Wilmington, Delaware 19801

ALAW&
CALIFORNIA RECONVEYANCE
COMPANY
9200 Oakdale, Avenue, Suite 100
Chatsworth, California 91311

MORTGAGE ELECTRONIC
REGISTRATION SYSTEMS
1818 Library Street, Suite 300
Reston, Virginia 20190

PITE DUNCAN, LP
C/O ALDRIDGE PITE, LP
4375 Jutland Drive, Suite 200
San Diego, California 92117

SELENE FINANCE, LP
Post Office Box No. 422039
9990 Richman Avenue
Houston, Texas. 77052

CAM IX TRUST
C/O HMC ASSETS
2015 Manhattan Beach Blvd., Suite 200
Redondo Beach, California 90278

QUALITY LOAN SERVICES
CORPORATION
411 Ivy Street
San Diego, California 92121

22

